<html>
<title> - IRAQ: IEDS AND MUNITIONS, ARE THEY SECURED?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
              IRAQ: IEDS AND MUNITIONS, ARE THEY SECURED? 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 2007

                               __________

                           Serial No. 110-14

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                     U.S. GOVERNMENT PRINTING OFFICE

36-740 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





































             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                ------ ------
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
JOHN A. YARMUTH, Kentucky            TODD RUSSELL PLATTS, Pennsylvania
BRUCE L. BRALEY, Iowa                JOHN J. DUNCAN, Jr., Tennessee
BETTY McCOLLUM, Minnesota            MICHAEL TURNER, Ohio
JIM COOPER, Tennessee                KENNY MARCHANT, Texas
CHRIS VAN HOLLEN, Maryland           LYNN A. WESTMORELAND, Georgia
PAUL W. HODES, New Hampshire         PATRICK T. McHENRY, North Carolina
PETER WELCH, Vermont                 VIRGINIA FOXX, North Carolina
TOM LANTOS, California
                       Dave Turk, Staff Director

































                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 22, 2007...................................     1
Statement of:
    Newbold, Lieutenant General Gregory S., U.S. Marine Corps, 
      retired; and Davi D'Agostino, Director, Defense 
      Capabilities and Management, Government Accountability 
      Office.....................................................    16
        D'Agostino, Davi.........................................    19
        Newbold, Lieutenant General Gregory S....................    16
Letters, statements, etc., submitted for the record by:
    Braley, Hon. Bruce L., a Representative in Congress from the 
      State of Iowa, prepared statement of.......................    53
    D'Agostino, Davi, Director, Defense Capabilities and 
      Management, Government Accountability Office, prepared 
      statement of...............................................    22
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............    10
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     4
    Yarmuth, Hon. John A., a Representative in Congress from the 
      State of Kentucky, prepared statement of...................    14


              IRAQ: IEDS AND MUNITIONS, ARE THEY SECURED?

                              ----------                              


                        THURSDAY, MARCH 22, 2007

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present Representatives Tierney, Lynch, Yarmuth, McCollum, 
Shays, Burton, Platts, Duncan, and Foxx.
    Staff present: Teresa Coufal, deputy clerk; Leneal Scott, 
information systems manager; Dave Turk, staff director; Andrew 
Su and Andrew Wright, professional staff members; Davis Hake, 
clerk; David Marin, minority staff director; A. Brooke Bennett, 
minority counsel; Grace Washbourne, minority senior 
professional staff member; Christopher Bright, minority 
professional staff member; Nick Palarino, minority senior 
investigator and policy advisor; and Benjamin Chance, minority 
clerk.
    Mr. Tierney. Good morning. A quorum being present, the 
Subcommittee on National Security and Foreign Affairs hearing 
entitled, ``Iraq: IEDs and Munitions, Are They Secured,'' will 
come to order.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee be allowed to submit a written statement for the 
record. Without objection, so ordered.
    We will take this opportunity to have opening statements. I 
would like to make one. I understand Mr. Shays would also like 
to make one.
    I want to welcome folks here this morning. I want to 
welcome Mr. Shays, who has been a good partner in this 
committee's proceedings. I want to thank our witnesses for 
being with us here today.
    General Newbold, thank you for your service to our country. 
We respect that a great deal. We appreciate your being here 
this morning.
    And Ms. D'Agostino, thank you for the good work on your 
report, which allows us to have this discussion.
    Earlier this month the subcommittee held a field hearing at 
Walter Reed Army Medical Center. We heard from Specialist 
Jeremy Duncan, who fractured his neck, lost an ear, and lost 
his sight in his left eye due to an explosion of an improvised 
explosive device [IED], near Samarra in Iraq. We met with other 
soldiers who suffered severe injuries, ranging from the loss of 
limbs to serious traumatic brain injuries as a result of IEDs.
    Defense Secretary Gates has stated that 70 percent of all 
casualties in Iraq are caused by IEDs. And the Pentagon, in its 
official February 2007 request for additional funding for the 
Iraqi effort specifically states, ``Insurgents use munitions 
from stolen caches to construct IEDs.''
    What is even more troubling is that the Government 
Accountability Office raises serious questions about whether we 
have finally secured and destroyed all of these ammo dumps. 
That report concludes, ``The sites remained vulnerable from 
April 2003 through the time of our review. . . . [I]n October, 
2006, we could not verify that all sites had been physically 
secured.''
    The GAO has also reported very disturbing anecdotal 
evidence. For example, ``in early 2006, local Iraqis stole 
rockets and mortars from an old storage area after rumors began 
to circulate that the site was to be cleaned up.''
    It is troubling, to say the least, and that is why this 
hearing was called this morning. There are so many unanswered 
questions that demand answers. What specifically is the 
Department of Defense doing in Iraq to deal with this problem? 
Do we, at the least, finally have our hands around the problem 
by having, fully undertaken an accounting of what is still out 
there? Has the Pentagon ever conducted a theater-wide survey of 
munition sites in Iraq as the Government Accountability Office 
has suggested? Are press reports accurate that the Defense 
Department has had a hard time maintaining a full complement of 
explosive disposal experts?
    The administration is requesting money in the 2007 
supplemental specifically to secure known weaponsites. Have we 
done all that we can to identify all weaponsites? If not, why 
not, given the potential consequences?
    Finally, have we learned anything over the past 4 years 
that would assist in future military operational planning?
    Unfortunately, we may not get all of the answers to these 
questions today. Although the Department of Defense responded 
in writing to the GAO draft report, we wanted to extend to the 
Department of Defense the opportunity to address the committee 
about the concerns raised by the report, and so we asked the 
Department of Defense to send us a representative of their 
choosing to testify today. They communicated that they would 
not care to have a witness present. We offered to postpone the 
hearing a week in case scheduling was a concern, and they still 
declined.
    This is troubling at a number of levels. There are people 
tasked with having their act together to protect our troops 
going forward. What does it say that they don't even have their 
act together to put forward a single witness to talk to us 
about these issues?
    Let me conclude by again thanking our witnesses who are 
here today. These are incredibly grave and important issues to 
be confronted. We have to do everything in our power by working 
together to protect our soldiers now and in any future 
missions. We owe the Jeremy Duncans of the world nothing less.
    With that, I yield to Mr. Shays.
    [The prepared statement of Hon. John F. Tierney follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shays. Thank you, Mr. Chairman, for holding this 
hearing. I want to apologize. My statement may be a little bit 
longer on this one. I am not used the being in the minority, 
and so just give me a little chance to get it down a bit here.
    Mr. Chairman, thank you again for holding this hearing. 
National security and foreign affairs whenever possible should 
be conducted on a bipartisan basis. You and your staff have 
demonstrated that you are willing to do that, and I thank you.
    It is essential even now that weapon stockpiles from Saddam 
Hussein's regime be properly secured and accounted for. These 
munitions have killed and maimed our brave men and women and 
wrought havoc throughout Iraq. So many civilians have suffered.
    I have consistently argued that our efforts in Iraq are 
noble, but I have also been an outspoken critic of the serious 
errors which have occurred throughout the course of the war.
    During my 15 trips to Iraq, I have seen firsthand 
unbelievable failures and notable successes. What I have 
experienced has been both sobering and inspiring.
    As the Government Accountability Office report being 
released today concludes, Defense leaders ``planned for and 
successfully executed a rapid march in Baghdad that relied on 
surprise and speed rather than massive troop buildup.'' The GAO 
believes that ``another critical planning priority was finding 
and securing the regime's stockpiles of WMD that the 
administration believed were a threat to Coalition forces and 
other countries in the region.''
    The GAO also reported that conventional arms stores were 
not secured because, as one planner recounted, ``ground 
commanders had to prioritize limited resources against the 
volume of tasks contained in the war plan.'' But to their 
discredit, the Pentagon, our intelligence community, and other 
agencies failed to anticipate the social and economic disorder 
which followed the implementation of the successful attack. 
Those components of the Iraqi army which were not destroyed by 
the Coalition were allowed to dissolve. Saddam's soldiers left 
their units and returned home for good.
    In addition, the Coalition Provisional Authority [CPA], 
disbanded the Iraqi police and border patrol. These forces were 
never reconstituted as they had existed. This meant there was 
no Iraqi security, no Iraqi police, no Iraqi border patrol, no 
Iraqi army. We didn't stand them up. We made a conscious 
decision to eliminate their army, police, and border patrol at 
the same time we concluded that these weapon caches would be 
guarded by Iraqis. Without any Iraqi forces and not enough 
American forces, it was impossible to adequately locate and 
secure the multitude of munitions sites. These sites were left 
prey for insurgents, and our troops and the Iraqi people paid 
the price.
    The amount and size of arms stockpiles and the types of 
weapons they contain tell us much about the nature and 
intentions of Saddam's regime. As General Abasay told a Senate 
committee 3 years ago, ``There is more ammunition in Iraq than 
any place I have ever been in my life.''
    What did we do about it? Nothing. Intelligence estimates of 
Saddam's conventional arsenal varied greatly before the war. We 
were wrong not only about weapons of mass destruction, but also 
about the size and number of stockpiles of conventional arms. 
The Department of Defense was slow to comprehend the scope of 
the problem posed by the weapon caches; nonetheless, since July 
2003, more than $1 billion has been allocated to destroy or 
secure more than 400,000 tons of munitions.
    As significant as this number may be, it is too little too 
late. A number of elected officials--and I am one--believed 
that Secretary Donald Rumsfeld needed to step down and that we 
needed a new strategy in Iraq. The day after this past 
election, the President announced the resignation of Donald 
Rumsfeld and the appointment of Robert Gates as Secretary of 
Defense.
    Secretary Gates selected a highly competent and experienced 
general, David Petraeus, to develop a new strategy to turn 
things around in Iraq. General Petraeus is clearly in charge, 
and we hope and pray for his success.
    As a senior Member of Congress, I intend to do everything I 
can to help him. In my judgment, he is clearly the best choice 
the President and Secretary could have made to lead our troops. 
From his very first assignment in Iraq, he was one of the few 
military leaders who recognized success would have to include 
diplomatic, military, and economic components.
    Our Soldiers, Marines, Airmen, Sailors, Coast Guard, and 
Coalition allies respond every day to attacks in Iraq. They 
don't care about the source of the munitions used against them; 
they only seek to stop the violence and help the Iraqis stand 
on their own so they can come home to their families knowing 
they left Iraq better than they found it.
    Unfortunately, our failure to secure the plethora of 
munitions sites and our failure to stem the violence have put 
the Coalition forces and the Iraqi government in a very 
defensive position. It is clear, even if every Iraqi cache were 
now secured, sophisticated weapons such as explosive foreign 
penetrators [EFPs], are finding their way across Iraq's 
unsecured borders.
    In closing, Mr. Chairman, I want to note my deep 
disappointment, as you do, that representatives of the 
Department of Defense declined to appear today. As chairman of 
the National Secretary and Foreign Relations Subcommittee, you 
have every right--in fact, you have a responsibility--to look 
at this issue and to expect complete cooperation from the 
Department of Defense. I will do everything I can to make sure 
you get that cooperation.
    We went into Iraq on a bipartisan basis with two-thirds of 
the House and three-fourths of the Senate authorizing the 
President's use of force. Just as we went into Iraq on a 
bipartisan basis, we need to leave Iraq the same way, with 
Republicans and Democrats working together.
    I appreciate the punishment of our distinguished witnesses 
today, and I look forward to hearing their testimony.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. I thank the gentleman.
    Ms. McCollum.
    Ms. McCollum. Mr. Chair, thank you very much for holding 
this hearing today.
    I would also like to add my voice to the extreme 
displeasure of the Department of Defense refusing to provide 
someone to testify at this important hearing. I am very 
disappointed that the Department of Defense does not have 
someone here to testify. I often hear these days, in other 
hearings, the Bush administration talking about lessons 
learned. Mr. Chairman, you offered an opportunity today to 
share lessons learned to make sure that we are moving forward 
in a fashion which we do not have these ammunition dumps 
unsecured, and I think we are going to hear some troubling 
testimony as you move forward.
    I, too, have had the opportunity to travel to Iraq. The 
first opportunity I had was to visit with General Petraeus in 
Mosul, as we flew over ammunitionsites in helicopters he 
expressed extreme concern that he did not have the troops and 
that there was not an Iraqi security plan put in place to 
secure all the ammo dumps, miles and miles and miles of ammo 
dumps, which he knew was going to present a clear and present 
danger to the military moving forward.
    So, Mr. Chairman, thank you very much for having this 
hearing.
    I would like to state--and this is in the GAO report--
several critical planning assumptions. The Iraqi army would 
capitulate and provide security was one of the assumptions of 
our Department of Defense. The Iraqi resistance would be 
unlikely was one of the presumptions of our Department of 
Defense. Post-war Iraq would not be a U.S. military 
responsibility was also another supposed planning assumption of 
the Department of Defense. So maybe, based on those three 
statements which I have just made, it isn't surprising that 
they are not here. It would be very difficult to defend their 
choices.
    Thank you, Mr. Chairman.
    Mr. Tierney. I thank the gentlewoman.
    Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    I would like to submit a statement for the record, but I 
would also like to associate myself with all of the prior 
remarks that this seems to be another example of the 
administration basically thumbing its nose at Congress, and I 
am so proud to be a part of an institution that is reasserting 
our constitutional responsibilities, both in this committee and 
elsewhere in the Congress. We do have an important role to play 
to make sure that Government does its job. I congratulate the 
chairman and am glad to be a part of this hearing.
    Thank you.
    [The prepared statement of Hon. John A. Yarmuth follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FOMRAT]
    
    Mr. Tierney. I thank the gentleman.
    Now we are going to receive testimony from the witnesses 
before us today.
    I want to begin by introducing the witnesses on the first 
panel, the only panel. We have Ms. Davi D'Agostino, Director of 
Defense Capabilities and Management, U.S. Government 
Accountability Office; and we have Lieutenant General Gregory 
S. Newbold, U.S. Marine Corps, retired, the former Director of 
Operations for the Joint Chiefs of Staff and currently with the 
Torch Hill Partners Group.
    I want to welcome both of you, as I said before, and thank 
you for being here today and for your respective roles.
    I also want to make it clear that General Newbold is 
testifying as a private citizen and his views are his own and 
in no way represent the official views of the Department of 
Defense.
    It is the policy of this subcommittee to swear in the 
witnesses before they testify, so I ask that you please rise 
and raise your right hands.
    [Witnesses sworn.]
    Mr. Tierney. The record will reflect that both witnesses 
answered in the affirmative.
    Now I would ask that each of the witnesses give a brief 
summary of their testimony. Your full statements, of course, 
will be placed in the hearing record if you wish.
    Perhaps, General, we might start with you.

   STATEMENTS OF LIEUTENANT GENERAL GREGORY S. NEWBOLD, U.S. 
 MARINE CORPS, RETIRED; AND DAVI D'AGOSTINO, DIRECTOR, DEFENSE 
 CAPABILITIES AND MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

       STATEMENT OF LIEUTENANT GENERAL GREGORY S. NEWBOLD

    General Newbold. Thank you, Mr. Chairman. I would like to 
thank all of the Members for convening this hearing, because it 
is a critically important subject and the information in the 
GAO report needs a broader distribution and it needs broader 
addressing and it needs some solutions.
    I want to take just a second to compliment both the 
chairman and the ranking member for their statements, because I 
agreed with all of the elements of them.
    I also agree with the GAO report, their analysis, their 
detailed research, their findings. I find absolutely nothing in 
their report that I disagree with. I will make different 
recommendations, and I will explain why I come to different 
recommendations as I go through a brief statement.
    Before I do that, though, I agree with all the statements, 
as well--disappointment and troubled by the absence of a 
Department of Defense.
    My views are these: GAO correctly identified a very serious 
problem that is contributing or is the prime source of the 
casualties we are suffering in Iraq right now. They have 
identified, as well, the two primary causes for the failure to 
secure the store and munitions storage sites in Iraq, those 
being the unsatisfactory planning and the inadequate troop 
levels for the invasion and subsequent occupation.
    The first point I would like to emphasize is to really 
address this problem we have to address the root causes of the 
problem, and the root causes were not the maneuver forces on 
the ground in Iraq during the march to Baghdad. They were, in 
fact, the victims or the recipients of the inadequate force 
levels. The root causes are as stated: the unsatisfactory 
planning.
    I will give a little bit of my own background and knowledge 
of how this came to be.
    As the chairman said, I was Director of Operations for the 
Joint Chiefs of Staff. I was there from essentially August 2000 
until November 2002, witnessed all the planning events up to 3 
months before the war.
    Prior to 2002, the plan for a potential invasion of Iraq 
was well thought out, well rehearsed through exercises, given a 
lot of deliberation, and was broadly open to contribution to 
others. It called for a force of around 500,000 troops if an 
invasion was necessary.
    In early 2002, the Secretary of Defense restricted the 
number of troops that could be used in a new plan for the 
invasion of Iraq and it capped it at 125,000. This was a 
fundamental mistake, and the consequences are part of the cause 
for this hearing.
    Subsequently, that plan was expanded, and the ultimate 
invasion force in the region, not in the maneuver force, grew 
to about 225,000, but at every step of the way the attempts to 
increase that force were inhibited and restricted. So when we 
crossed the line of departure with the two maneuver elements, 
although they did an astoundingly, even a historically good 
job, the forces were so thin that they could not accomplish all 
of the tasks at hand.
    I have spoken within the past couple of days to very 
prominent commanders as they moved forth, and they agree with 
my description, in fact with the GAO. They were aware of 
ammunition storage areas that they uncovered in the march to 
Baghdad. They were deeply troubled by them. On some occasions 
they attempted to destroy them. On some occasions the munitions 
areas were so large that to destroy them quickly would have 
resulted in enormous collateral damage to surrounding civilian 
population.
    They had an alternative to guard those storage sites, but 
in doing so they would have dissipated their already-thin 
forces to the degree that they would have had to halt the march 
forward.
    Additional time in taking Baghdad would have resulted in 
significantly more casualties, would have given more time for 
the fifth column, the insurgents, to develop, would have given 
more time for the Iraqi forces to prepare for a more robust 
defense, so speed was essential in the march to Baghdad, and of 
all the things they could accomplish, the forces driving north 
made a troubling decision, but the only decision they could 
make, and that was to leave some of these uncovered.
    The GAO report is exactly right. A key assumption in the 
planning for Iraq was that the population would be friendly, we 
would be greeted as liberators, that the Iraqi army would 
remain intact, Iraqi police force, and that they would be used 
for internal security.
    None of those assumptions and more proved to be true.
    To emphasize what we now call phase four planning--I want 
to take another element of that, because it is key to my 
recommendations, and that is that the interagency defaulted for 
the planning of Iraq to the Department of Defense, and that was 
terribly unfortunate. The Department of Defense is not 
experienced or skilled or doesn't have the depth of cultural 
awareness to govern a country and to reconstruct it.
    The interagency was not robust in their planning and they 
weren't robust in their actions. That largely is considered as 
continued to today.
    The consequence of that is that not only did you have 
uncovered ammunitionsites, but that we now had people that had 
a reason to raid and loot those storage sites, because with 40 
percent unemployment, with an economy in disarray, with what 
they viewed as an occupying force in the country, and with 
factions at odds with each other, it was inevitable that there 
would be an insurgency.
    The combination of the vacuum left by planning and 
inadequate forces fostered the insurgency, combined with the 
unguarded munitions storage sites, and you have the ingredients 
that now put us where we are today.
    I can go into much more detail planning or analysis and 
personal anecdotes about what contributed to the poor planning 
and what contributed to the poor decisions and, in fact, to the 
inadequate troop levels, but I will leave that to questions.
    I would like to take a minute to talk about my personal 
recommendations.
    First of all, if we agree that the forces over there then 
and there now are too thin, too inadequate to do the job, then 
my personal recommendation is that we not add to their task at 
hand by burdening them with doing a report and a survey. I 
appreciate why that would need to be done, but my views are 
that we have a bloated bureaucracy in Iraq right now, and the 
more paperwork we levy on them the more reason they will have 
to grow, fewer trigger pullers, to greater people in the 
bureaucracy.
    But something must be done about this, and what would that 
be? I am troubled enough by the absence of the Department of 
Defense that I think there must be some accounting by them in 
writing for what they would intend to do. But my broader 
recommendation is this: that the interagency process of our 
Government, the national security apparatus is fundamentally 
flawed. I would go back in time to a small episode in U.S. 
history of relatively minor consequence called Grenada that 
uncovered deep flaws in the jointness of our armed forces. The 
consequence of that was the robust, even courageous action by 
the Congress in 1987 in what is now called Goldwater-Nichols, 
and the improvements to our armed forces as a result of that 
legislation have been significant and they have saved lives, in 
fact.
    The Iraq crisis has resulted in 3,200 dead and over 20,000 
wounded, and Grenada pales in comparison. Equally, the 
interagency flaws or the flaws of our military before Grenada 
pale in comparison to the interagency weaknesses of today. If 
you want to avoid the planning mistakes that occurred for Iraq, 
you have to strengthen the interagency, communication, 
coordination, and ability to respond to crisis. You have to go 
right into the departments and agencies and insist that they 
have resources and the staffing and the culture to support 
these kinds of operations.
    The Center for Strategic and International Study did a 
review called Beyond Goldwater-Nichols II. It may not be 
perfect, but it makes an excellent start in addressing the 
interagency problems through Goldwater-Nichols type 
legislation.
    I would encourage the committee to be aggressive, both in 
contribution by the Department of Defense to analyzing this 
critical problem, and by the broader Congress and our 
Government in fixing the interagency problems and restoring 
some semblance of correct planning to our process, Mr. 
Chairman.
    Mr. Tierney. Thank you very much, General. That is valuable 
testimony. I know Mr. Shays and I both have an interest in 
following up on your latter recommendations on that.
    Ms. D'Agostino, please.

                  STATEMENT OF DAVI D'AGOSTINO

    Ms. D'Agostino. Good morning, Mr. Chairman. I am pleased to 
be here before you today to discuss GAO's report on the 
problems posed by the former Iraqi regime's conventional 
munitions storage sites during Operation Iraqi Freedom [OIF].
    This work was done under the Comptroller General's 
authority, although it was prompted by a request from 
Representative Maloney of this subcommittee, concerning the 
Alcaca facility which had been extensively looted during major 
combat operations.
    Our work and results are based on an analysis of OIF war 
plans, field unit reporting, finished intelligence assessments, 
joint doctrine and policy, Department of Defense [DOD] lessons 
learned studies, and interviews of senior level DOD officials.
    I would also caution that this report is an unclassified 
version of a classified report, and therefore in some cases my 
remarks and later answers to your questions may be limited due 
to classification.
    Specifically, our testimony and report we are releasing at 
your hearing today are focused on two key questions: first, how 
did the Department of Defense and U.S. forces handle the 
security of Iraqi conventional munitions storage sites; and, 
second, what actions has DOD taken to deal with the risk posed 
by an adversarious conventional munitions storage sites for 
future planning of operations; and, third, I will summarize the 
report's recommendations and DOD's response.
    First, the overwhelming size and number of conventional 
munitions storage sites in Iraq, combined with certain pre-war 
planning priorities and assumptions that proved to be invalid, 
resulted in U.S. forces not adequately securing these sites and 
widespread looting. Pre-OIF estimates of Iraq's conventional 
munitions varied significantly, with the higher estimate being 
five times greater than the lower estimate. Conventional 
munitions storage sites were looted during and after major 
combat operations, and an unknown number of sites remained 
vulnerable as of October 2006, which was the time we finished 
our review.
    Our report details a number of assessments done during that 
period of certain groups of munitions storage sites that showed 
a lack of security and systematic looting, as well as an 
estimate that the unsecured and looted sites will likely 
continue to supply terrorist activities in the region.
    Lessons learned reports and DOD officials state that the 
widespread looting occurred because DOD had insufficient troop 
levels to secure conventional munitions storage sites due to 
the OIF planning priorities and assumptions that proved to be 
invalid.
    Key planning assumptions that contributed to the 
insufficient force levels were: that Iraqi army units would 
capitulate and provide internal security; Iraqi resistance was 
unlikely; and post-war Iraq would not be a U.S. military 
responsibility.
    According to DOD lessons learned, these assumptions were 
central to an OIF force structure plan that was insufficient to 
prevent the breakdown of civil order in Iraq or perform several 
missions requiring troops, including securing enemy 
conventional munitions storage sites.
    A U.S. Central Command planner also told us that there were 
no branch or backup plans to mitigate the risks if the planning 
assumptions were proven wrong. This is a requirement in joint 
doctrine.
    War plan priorities were to take Baghdad quickly and by 
surprise, with a smaller force package than was used in the 
prior Gulf war, and to search for and find weapons of mass 
destruction. Also, DOD did not set up a centralized program to 
manage and destroy the Iraqi munitions until August 2003, 
months after the March 2003, invasion and the May 2003, 
declared end of major combat operations.
    The Coalition munitions clearance program administered by 
the U.S. Army Corps of Engineers had either destroyed or 
secured, along with U.S. military disposal operations, more 
than 417,000 tons of munitions at the time we completed our 
work, leaving an unknown quantity of munitions in the hands of 
resistance groups or still unsecured. These munitions, looted 
from unsecured conventional munitions storage sites, have been 
the source of explosives for the majority of IED attacks, which 
have been very costly, as you all have pointed out in your 
opening statements.
    In addition to the loss of life and maiming many U.S. 
troops and Iraqi citizens, the IEDs have also effectively 
frustrated the achievement of OIF's strategic goal of 
establishing a stable Iraqi nation.
    Also, DOD spent about $4.9 billion from fiscal years 2004 
to 2007 on countering an IED campaign that continually evolves, 
making DOD's countermeasures less effective over time.
    The amount of conventional munitions unaccounted-for could 
range significantly from thousands to millions of tons.
    As our report discusses, the unsecured munitions from the 
former Iraq regime continue to pose a risk to U.S. forces and 
others, and, despite the strategic value to the enemy of 
escalating IED attacks, DOD has not yet done a theater-wide 
survey and risk assessment. Such an assessment, as stated in 
joint doctrine, would assist DOD in conserving lives and 
resources and avoiding or mitigating unnecessary risk. In other 
words, DOD has not identified the remaining unsecured munitions 
storage sites, assessed the risk they pose, identified possible 
courses of action, and then taken steps to reduce the risk.
    Turning to the second question, our review showed that DOD 
had not taken action through changes in its doctrine, policies, 
or procedures to ensure that securing an enemy's or adversary's 
conventional munitions storage sites is handled as a strategic 
planning priority in future operations. Rather, DOD's focus and 
changes to doctrine and other military policy and guidance has 
largely been on countering IEDs and disposing of explosive 
hazards, understandable and also important in light of ongoing 
operations.
    Now I will turn to our recommendations and DOD's response.
    We recommended that DOD: one, conduct a theater-wide survey 
and risk assessment on unsecured conventional munitions storage 
sites in Iraq; two, report the related risk mitigation 
strategies and results to the Congress; and, three, include 
conventional munitions storage site security as a strategic 
planning factor into all levels of planning, policy, and 
guidance.
    DOD partially agreed with our recommendations.
    That concludes my summary remarks. Thank you.
    [The prepared statement of Ms. D'Agostino follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Tierney. Thank you, Ms. D'Agostino.
    Let me start by saying that I intend to work with the 
minority here. The majority and minority will work on some 
rather pointed questions for the Department of Defense to 
respond to on this, and they will have the opportunity to 
respond in writing or by subpoena, if necessary, to come in 
here and tell us what their reaction is, but I think this 
hearing has raised some valuable questions.
    I want to ask you, Ms. D'Agostino, on page 11 of your 
report you said that the Department of Defense has destroyed or 
secured 417,000 tons of munitions as of October 2006, the end 
of your report. Now, General Sanchez back in October 2003 was 
reported to say there was 650,000 tons of munitions, and senior 
military officials were reported by the New York Times back in 
September of that year to say there were between 650,000 and a 
million tons. When we are talking in the unclassified part of 
your report you say that they are between X and five times of 
the tons that are on the report. Would 650,000 be a good 
substitute for X, as we are looking at a potential upside here 
of some really significant numbers?
    Ms. D'Agostino. The numbers that we obtained were from 
classified sources, so I can't confirm that this is a correct 
number; however, if you used General Sanchez' number as a 
reference point, the 650,000 tons, as the low estimate and then 
did the five times greater as the high estimate that we saw, 
that would put the high estimate from General Sanchez' number 
at 3.25 million tons. But, again, I can't confirm those.
    Mr. Tierney. I hear what you are saying. That is a 
disturbingly large tonnage----
    Ms. D'Agostino. Yes.
    Mr. Tierney [continuing]. Potentially still out there. I 
think that is the really disturbing part.
    General, I understand from what you are saying that, with 
the rather thin numbers of troops that are over there right 
now, you see some difficulty tactically using the resources and 
the manpower that we have to actually go out and identify these 
sites and then secure them. Am I correctly stating your 
position or your assessment?
    General Newbold. Mr. Chairman, I think they have made a 
very high priority to identify the sites and to try to secure 
them or try to destroy them. I think the difficulty lies both 
in providing the troops to focus on this task in a country of 
that size, and then to prepare the reports for dissemination in 
Washington.
    My feedback from the commanders over there is that it is 
already the top priority. One of the commanders has been in 
five different IED ambushes, himself, and has lost a number of 
people in those ambushes. So he makes it a priority. It is an 
enormously complex and difficult problem, as you just 
described.
    Mr. Tierney. The GAO report says that the Operation Iraqi 
Freedom War Plan did not examine the consequences of these and 
other important planning assumptions being proven wrong. That 
is to say, no Plan B, no alternative. Would that comport with 
your assessment of the situation going into this?
    General Newbold. I want to make sure I have answered your 
point, Mr. Chairman. I fundamentally believe that planning 
assumptions were one of the major factors in the failings that 
brought us to where we are today, and then there were 
additional poor decisions made at the time, like disbanding the 
Iraqi army, and the combination of those and the low force 
levels have caused the situation, but I don't think that----
    Mr. Tierney. I think it gets at what I was talking about. 
You mentioned, I think, some very interesting aspects in your 
testimony, not the least of which is the interagency situation. 
So if I were to ask you, I think it is inappropriate to blame 
the people that are on the ground over there. I think that we 
probably all agree with that. But what went wrong in Washington 
and in Florida, CENTCOM, and what three things might we look at 
as a legislative body here to identify what went wrong and then 
try to figure out for ourselves what we could do to be helpful 
going forward. This is not, as Ms. D'Agostino puts in her 
report, this is not the last time we may see this situation.
    General Newbold. Mr. Chairman, my view from where I sat was 
that there were some impossibly naive assumptions about how 
easy the victory would be in Iraq, the subsequent occupation, 
and what level of commitment would be required by the U.S. 
Government. The U.S. Government actions were really mostly 
restricted to the Department of Defense. The Department of 
Defense leadership had such strongly held views that they 
neither solicited nor much tolerated dissenting views that 
might have reflected on long years of experience. And, frankly, 
I think a number of the senior military officers were not vocal 
enough when they saw the situation that was going awry. That is 
a matter of grave disappointment.
    Mr. Tierney. Two out of three of those things basically are 
leadership issues, and I'm not sure we can always legislate 
leadership and personalities. Believe me, a lot of us wish we 
could on this situation.
    But the other part that I think we can probably do 
something about is that interagency, do something to make sure 
that if we ever get in the situation that there is interagency 
planning and that they do fully participate, and I think maybe 
some future hearings on that would be worthwhile.
    Let me finish my questioning for now, at least, Ms. 
D'Agostino.
    Having the knowledge of what we have for troops on the 
ground over there now and the situation, do you or does GAO see 
or believe that there is a potential that a survey could still 
be done and should be done and that is a reasonable thing to 
expect, given the current situation, and that would help, in 
fact, lower the number of people being injured by IEDs, in all 
probability?
    Ms. D'Agostino. Yes, we do. I think there is more than one 
way of conducting the survey and maybe using more than one set 
of resources to do that. Again, we are not in the business of 
micro-managing the Department and telling them how to go about 
doing their business. We suggest what business needs to be 
maybe done. But, again, it is not clear to us that the only 
option is to use our troops, our thin troops--and I agree with 
the General here--on the ground for this purpose. But I think 
other assets could be used, as well, to do the survey.
    Mr. Tierney. Thank you very much.
    Mr. Burton, 5 minutes, please.
    Mr. Burton. Thank you, Mr. Chairman. I am glad you are 
holding this hearing. It is very informative.
    General, when the discussion was taking place on the troop 
level that should be utilized to go into Iraq, how many people 
were involved in that? I know you were the lead man, but how 
many other guys were involved?
    General Newbold. Sir, there was a specific meeting, a 
briefing, actually, that resulted on the cap on the forces that 
could be used over there, and it was a small group of people in 
the room, probably no more than seven or eight.
    Mr. Burton. Including the Secretary of Defense?
    General Newbold. Including the Secretary, sir.
    Mr. Burton. And did anybody else express the same view that 
you did, that we should have 500,000 go in?
    General Newbold. Sir, I want to clarify that. It is a 
matter of some personal shame to me that I didn't interrupt the 
meeting and stand up and express my complete objection to the 
fact that the number was being reduced like that. There were 
two other senior military leaders in the room, senior to me. 
Neither one of them expressed objections.
    Mr. Burton. Did they share your view?
    General Newbold. I can't say that they did.
    Mr. Burton. Let me interrupt and just say this. You know, 
this is a very, very important hearing. I think it is more 
important than most people realize. You know, there is a lot of 
politics played in this House and in the Senate, and I presume 
there's a lot of politics that's played in the Pentagon. Were 
there people, in your opinion, that didn't express their views 
because they wanted to maintain their position, or maybe rise 
to a higher level? I mean, was politics a part of the reticence 
on members' part to say we need more troops going in?
    General Newbold. I honestly don't think so, sir. The people 
I was talking to had risen to the highest rank they could be.
    Mr. Burton. OK. Well, that's my point. If there was no 
politics involved and it was no risk to people's careers, why 
didn't somebody just stand up and say, Hey, Mr. Secretary, this 
isn't right, we need to go in with overwhelming force, we need 
500,000. I mean, I can't understand why you and others--I'm not 
criticizing, I just can't understand why you wouldn't say, 
listen, this is crazy. We have to go in and protect these 
munitions sites. We have to make absolutely sure that all these 
weapons are controlled, and we want to make sure we control the 
population. So why didn't somebody just jump up and say, hey, 
this isn't right?
    General Newbold. Sir, I think part of it is a culture of 
obedience, which is nice to have among the national military, 
but obedience in my view does not limit ability to speak up and 
to speak out.
    Mr. Burton. Pardon me for interrupting, General, but, 
General, when you talk about going to war, General Dwight 
Eisenhower in World War II, he had a whole cadre of people 
before the Invasion of Normandy that came in. He listened to 
them. They made decisions. He made the decision, but he 
listened to everybody.
    It really troubles me, and I am not angry about it with 
you, it troubles me that there were people with your knowledge 
and your experience sitting in that room and the Secretary of 
Defense said, we are going to go with 120,000, and you are 
sitting there and the others are sitting there saying, hey, we 
really need a lot more than that to make sure that we don't 
have a problem down the road.
    I just can't understand why there wasn't more discussion. 
It is not a question of disobedience; it is a question of 
giving advice to somebody who really didn't have a lot of 
combat experience.
    General Newbold. I think you are exactly right, 
Congressman, exactly right. I do get angry about it. I resigned 
over it--retired, more accurately.
    Mr. Burton. Let me just say--and I hope that the Members of 
Congress will listen to this, because I think it is important--
we need to tell the Pentagon and the other agencies that are in 
the decisionmaking process, send the message over to the 
Pentagon and the National Security Agency, send the message 
over there that if a general or top generals disagree with a 
war strategy, they express themselves. It really bothers me 
that you probably were right. We didn't know anything about it. 
We have lost a lot of people, and they are doing a great job, 
but had we done what you thought about and had the other 
generals expressed their position, a lot of these lives might 
not have been lost. I know that troubles you, but we have to 
express ourselves that the people with knowledge and combat 
experience have to stand up and be counted, even if the 
Secretary of Defense may disagree with them. Following orders 
is one thing; giving advice is another. And I think it is 
extremely important that the people with the combat experience 
from now on say, ``Hey, I don't think this is right, Mr. 
Secretary, and here is why,'' and force the issue if you have 
to.
    I am not criticizing in retrospect what happened. I am just 
saying this is something that must be done in the future, 
because this isn't the end of wars. There's going to be more.
    Thank you, Mr. Chairman.
    Mr. Tierney. I thank the gentleman.
    Ms. McCollum.
    Ms. McCollum. Thank you.
    Maybe you could help me, sir. It was my understanding that 
there was a general who did speak out. General Zinzecki did 
speak out about the number of troops being deployed, did he 
not?
    General Newbold. In testimony on the Hill he testified----
    Ms. McCollum. In Congress. I am not talking about the 
meeting you were at, but the general did speak out. And what 
was the administration's reaction to the general speaking out, 
sir?
    General Newbold. General Zinzecki was not in the meeting I 
was referring to, so----
    Ms. McCollum. But when he did speak out publicly about how 
we didn't have enough troops moving forward, what was the 
Pentagon's reaction to his speaking out?
    General Newbold. Both the Secretary of Defense and the 
Deputy Secretary of Defense were extremely critical of his 
assessment. I think they were disparaging of it. The Secretary 
of Defense, as you know, announced a year before General 
Zinzecki's official retirement date that there would be a 
replacement, and who it was. I think those were strong signals 
about dissent among the ranks.
    Ms. McCollum. I would agree with you. I know military men 
and women do not lightly go into openly making suggestions that 
perhaps another approach should be taken than one that senior 
leadership and the administration would be moving forward with, 
but this gentleman, the general's reputation was soundly 
trounced and very effectively destroyed for a while. I believe 
he has been vindicated.
    I was looking at the response, the only response we have in 
front of us today from the Department of Defense. It is from 
the Office of the Assistant Secretary of Defense. It is dated 
September 1, 2006. It is in response to some of the GAO 
recommendations.
    Ms. D'Agostino. Yes.
    Ms. McCollum. One of the things that you point out in the 
GAO report is that the focus in looking so much for weapons of 
mass destruction--in other words, the administration had gone 
to war on misinformation given to the public to gather support 
that there were these massive weapons of mass destruction. 
Former General Colin Powell, Secretary of State at the time, 
has said that he was given misinformation and that he regrets 
what he said and that there were no weapons of mass destruction 
as presented to be imminent danger to the people of the United 
States or people in the region.
    There was so much focus on trying to find these weapons of 
mass destruction to prove their case for war that it appears to 
me that when the military identified some of these ammo dumps 
and saw them as problems they said, ``No, keep moving, we have 
to find the weapons of mass destruction.'' So I would like to 
go back to the response that the Assistant Secretary of Defense 
gave you about doing the risk assessment, your first 
recommendation.
    The Pentagon's response was, ``Well, it is imperative that 
a complete and thorough assessment of ammo sites be 
conducted.'' These findings are not new and military commanders 
in theater are aware of this issue.
    So my first question would be then what directive did the 
Department show you that they are actually going to clean up 
these sites?
    The other troubling part I find is on the second page of 
the letter, in which a third recommendation is addressed in 
which you ask the Joint Chiefs of Staff to incorporate 
conventional munitions storage site security as part of their 
strategic planning.
    The response back from the DOD--and I will read their last 
paragraph--``One should not dictate that intelligence resources 
must be dictated to monitoring one target versus the other, 
which restrains commanders' prerogatives and stifles planning 
operations. These plans must also reflect proper pre-
authorization based on a desired operational effect and 
resources available, as it may not always be possible or 
desirable in a resource and time-constraint environment to 
secure all sites or destroy all munitions.''
    That to me sounds like, ``If we want to look for something 
else, weapons of mass destruction, and in the future we keep 
going by all these sites, don't tell us we have to secure the 
sites. We are going to decide what we are going to do.''
    I would like your reaction to the response you got back 
from the Department of Defense on this, because our men and 
women are in harm's way dying and being severely injured by 
this, and Iraqi children and civilians are being injured by 
this, and so I want to know your reaction to the Department of 
Defense. Why can't they walk and chew gum at the same time? 
They should be able to do both.
    Ms. D'Agostino. Well, you have given me a lot to respond to 
here.
    Let me work back. On the third recommendation, we tried to 
followup with DOD before the hearing to find out, you know, 
where they stood on implementing the recommendations. We 
understand that the JCS is working on incorporating the 
elements we asked for in our third recommendation into all 
levels of doctrine on planning and the JOBE system, and so we 
understand that they are putting in the words into the doctrine 
and the guidance, as we suggested.
    I think that the DOD comment indicates that they retain the 
right to have the flexibility of setting whatever priorities 
they want when they undertake an operation, and, of course, 
they do have that right and they did before our recommendation, 
and, as our report discusses and the lessons learned show, we 
see how that played out.
    We do acknowledge the resource constraints, as also General 
Newbold has pointed out.
    On the comment to the first recommendation, it was 
confusing to us that, on the one hand, DOD acknowledged that it 
was imperative to do a survey, a thorough and comprehensive 
survey, and at the same time they said that the commanders are 
aware. We know that the commanders of the units in country are 
aware.
    One thing I want to just make clear and restate is that 
this priority of finding the WMD--and I think we do have this 
in our unclassified report--given the thin troop levels that 
the general mentioned and the numbers that we had and the 
priorities that were set for them, and also there was no 
guidance out to the troops on what to do if you encounter one 
of these conventional munitions storage sites--that you open 
the door, you don't see a WMD, and what do you do next. There 
was no guidance to them about what to do next. They did close 
the door and then move on, looking for more WMD, based on the 
field unit reporting and the like that we saw. But those were 
the priority tasks and missions they were given, and, given the 
resource levels they had, this is exactly what they were doing, 
what they were told to do.
    Again, in the absence of any further guidance to the troops 
or even the unit commanders, they didn't have the people to do 
the other missions that they might have done had there been 
higher troop levels.
    We heard this from a former CENTCOM commander, as well, 
that the rapid march to Baghdad with a very small force package 
left white space behind us, and his plan had called for between 
385,000 and 500,000 troops to secure rear areas.
    Mr. Tierney. Thank you, Ms. D'Agostino.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    General Newbold, in this column you wrote for Time Magazine 
almost a year ago--I think it was April 2006--you have words in 
there like ``the zealots' rationale for war made no sense,'' 
and you ``saw intelligence distorted to justify the war.'' Now, 
almost a year later, I'm sure you have thought about this many 
times. Why do you think they wanted to go to war so badly? Do 
you think the so-called neocons, who to me are totally opposite 
from what traditional conservatives have been--and I have been 
a conservative since I was a teenager--do you think, as some 
people have said, that they wanted to go to war long before 9/
11 and they were just going to almost use any excuse possible 
to do that in Iraq? Or why do you think they were so eager to 
go to war?
    General Newbold. Sir, first of all, I believe that they had 
Iraq in their sites long before the administration came into 
power. I think some of them were well intended. My personal 
belief is that the Deputy Secretary of Defense, Paul Wolfowitz, 
for example, fervently believed that in planting democracy in 
an unstable region would metastasize and grow throughout the 
region and be a wonderful thing for the world. I think that was 
naive, and I think that has been proven out, but I do think it 
was well intended.
    I am less gracious about some of the others who I described 
as zealots in that article who were indeterrable about Iraq, 
and my personal experience, days after 9/11 when the Nation was 
in shock about a nearly Pearl-Harbor-like attack on us--in this 
case on civilians, though--they immediately focused on Iraq 
instead of Al Qaeda and the Taliban. That shift in priorities 
is unexplainable to me, and some of it continues to this day.
    But the motivation, sir, I find it troubling, but I don't 
know the answer.
    Mr. Duncan. Here is another of the many things that has 
always been so frustrating to me over this whole situation, and 
that is, you know, I am not as much into the social issues. For 
me the big thing has always been fiscal conservativism and 
fighting waste, fraud, and abuse, things of that nature, and I 
was always proud that the Republican party, my party, seemed to 
be by far the most fiscally conservative party, but ever since 
we went into Iraq, I mean, I hear all these things. A year-and-
a-half or 2 years ago we had David Walker, who is now the head 
of the GAO who then was the Inspector General for the Defense 
Department, he came in here to this very subcommittee--
actually, I think it was in another room, but I'm pretty sure 
it was this same subcommittee--and he said that we had lost $35 
billion in Iraq due to waste, fraud, and abuse, and another $9 
billion that just couldn't be accounted for at all.
    Then a Foreign Service officer a year or so later told me 
that he had been over there for a year and he had seen SUVs 
stuffed so filled with cash that there was barely room for the 
driver. You hear all these stories.
    Then what becomes so frustrating, in addition to all this 
waste, I read a column by a conservative columnist, Walter 
Williams, and he quoted some general or some Defense expert 
saying Al Qaeda was now down to less than 3,000 people, they 
had no money, the average Al Qaeda member was, he said, a high 
school dropout who lived at home. We are up against Al Qaeda 
and insurgents that have very little money. We are going to 
spend $624 billion, I think the last figure I saw that we are 
giving to the Defense Department, counting the supplemental and 
all these other appropriations, we have 160,000 troops over 
there, or something. Why do we have so much trouble, when we 
have all the money in the world and we are spending more on 
Defense than all the other nations of the world combined, when 
you add in all these extra bills that we have passed? I just 
have a real difficult time understanding this.
    General Newbold. I'm not sure I can help. I am in 
agreement. We have spent not only the capital resources of this 
country, but young lives, and our----
    Mr. Duncan. Yes. That's the worst thing of all. I will 
definitely agree with you there. I don't want anybody to think 
that I'm overlooking that.
    I'm sorry to interrupt you. Go ahead.
    General Newbold. All those assets and more, the prestige of 
the country, they will have consequences in the future. We will 
continue to pay this price for flawed judgments made several 
years ago.
    Mr. Tierney. I thank the gentleman.
    Mr. Duncan. Thank you.
    Mr. Tierney. Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    General Newbold, I am curious as to what role intelligence 
might have played in this situation. In the sense that, if we 
had known or the Pentagon had known that there were some 18,000 
sites where conventional munitions were stored, that they may 
have wanted--they may have said, well, wait a minute, now, we 
do need additional troops to do this. Did they have the 
intelligence as to how much conventional arms were stored 
around the country? Did they not ask that question, or did they 
get an answer that was not anywhere near accurate, if you know?
    General Newbold. Sir, the intelligence on Iraq on their 
forces was actually quite good, and in that regard they knew 
ammunition storage sites, the major ammunition storage sites, 
but they didn't know what was in there. I think the GAO report 
has laid that out in very good detail.
    The planning as a result of that intel, though, had to 
adjust to two things. One we have already talked about was the 
very low number of troops, and the other one was that the 
planners at the various elements were instructed to follow the 
assumptions that GAO has also pointed out, and that is that the 
Iraqi army would guard the civilian infrastructure, they'd 
guard their own bases, none of which happened.
    I would also point out that, frankly, the country is awash 
with munitions and that we will never know about. An anecdote 
from a good friend of mine, a general responsible for much of 
the operations in the western part of the country detailed a 
story about Marines uncovering an ammunition dump in Awadi full 
of World War I ammunition, Turkish stocks, hundreds stocked 
high. So I am not even sure the Iraqis ever knew how much 
ammunition they had. That is not an excuse, by the way. That is 
merely a recitation of the factors that went into it.
    Mr. Yarmuth. Ms. D'Agostino, you mentioned that you are not 
sure that the Pentagon or the Department of Defense would be 
the right people to do the survey that you are talking about. 
Who else might be available to do this? Is this another 
Halliburton deal?
    Ms. D'Agostino. No, I was not suggesting a contractor, 
necessarily. I need to clarify. I was just saying that it is 
not clear that the combat troops who are now very busy with 
their ongoing operations and missions are necessarily the only 
folks who could do this survey. And it is not clear that other 
assets couldn't be used to do the job.
    Mr. Yarmuth. Who might those be?
    Ms. D'Agostino. Well, I think there may be ISR assets to do 
some of the legwork on the survey.
    Mr. Tierney. If I might interject, you might want to use 
the words, as opposed to the acronym.
    Ms. D'Agostino. I'm sorry. Intelligence, surveillance, and 
reconnaissance assets, which is one possibility, combined with 
the folks who are on the ground.
    Again, it is DOD's job to figure out how to do their own 
survey and their risk assessment, and I think we have pointed 
out in our report that the Joint Staff should be responsible 
for such an assessment.
    Mr. Yarmuth. Thank you, Mr. Chairman. I yield back.
    Mr. Tierney. I thank the gentleman.
    Mr. Shays.
    Mr. Shays. Thank you. I appreciate both of you being here. 
Mr. Chairman, again, I appreciate this hearing a lot.
    I really don't have a lot of questions for GAO. I concur 
with the findings, particularly as General Newbold has 
concurred with them. He questioned some of your 
recommendations, so I don't really have questions for you.
    General, I could keep you here for a long time. I really 
appreciate your being here, and I don't think it is ever easy 
to come, even if you are retired, to a hearing and talk about 
your family and talk about where things didn't go right and 
where you wish you had done something different.
    I feel very strongly that my vote to get Saddam out of 
Kuwait was the right one, and I wrestled with that for a long 
time. We know that Saddam went into Kuwait because he believed 
we didn't have the fortitude to get him out because of Vietnam, 
and he misjudged us. I regret voting to go in to remove Saddam 
from power based on weapons of mass destruction, since we were 
dead wrong, and in theory I would have been willing to go into 
Iraq for other reasons if I knew that we would have fought the 
war differently. But, knowing now how I know we have ended up 
fighting this war, I wouldn't have even voted to go in for that 
reason.
    I wish I had voted no so that now I would have credibility 
when I say we can't leave, and my understanding is you advised 
against this operation, but you also have a concern that we not 
leave, I believe, until we stand up their army, their police, 
and their border patrol and allow them to defend themselves. Is 
that a correct appraisal of your position?
    General Newbold. That's correct. I have made very public my 
opposition to the war, to the invasion, but if we think 
strategically for the good of our country I think we have to be 
aware of the enormous consequences of withdrawal short of some 
modicum of stability in that country. We are not going to make 
the democracy a model like Iowa. We are not going to restore an 
economy fully. That will take generations. But we must maintain 
some level of stability in the country.
    The consequences for the United States in encouraging those 
who would wish us ill, that would like to see us lose our power 
is a matter of grave concern strategically to us, I think.
    Simply put, I think once the United States is into a fight, 
they have to win it.
    Mr. Shays. The Ambassadors surrounding Iraq, a number of 
them--Saudi Arabia, Jordan, Turkey, Kuwait, Egypt--Egypt 
obviously being a little farther away--all said, we wish you 
hadn't gone in, but, having gone in, you can't leave until 
there is some stability. I happen to believe, though, that that 
stability won't really take place until Shias and Sunis work 
out their differences, so I am one who believes there needs to 
be some kind of deadline, but a realistic deadline so they know 
we are not there indefinitely.
    What I would really like to talk to you about, in addition 
to what I just have mentioned, is yesterday--now this is an 
anecdote--yesterday we had a senior member from the Coast Guard 
come in to testify behind closed doors about a report that we 
had that talks about the vulnerabilities of our ports and the 
fact that we don't have, in some of our ports, the security we 
need because we don't have the people. It was a report. I said 
to him, the thing that bothers me is that when we have people 
testify they don't tell us the truth. I realize you have a 
command requirement, but it seems to me when you are before 
Congress you have a moral obligation and a legal obligation--I 
am saying to anyone in command--to respond to our answers 
honestly.
    I made my point and then we went public, and another Member 
asked this general, ``Do you have everything you need, sir, to 
do your job,'' and he said, ``Sir, we have everything we need 
to do our job.'' It was right after we had this conversation.
    So I interrupted the questioner, but I just would love you 
if you could somehow tell me how you in the military are 
wrestling with this reality. The Secretary of Defense has the 
responsibility. You are military, answerable to civilians, but 
in hindsight if there is an after-action review of this how do 
you deal with a Secretary who says you only have 125,000 when 
you think you need 500,000? I think it was pushed up to 
250,000. But how do we deal with this in the future? I'm really 
gun-shy to believe anything I hear from this administration, 
candidly, because I think loyalty trumps honesty. But I think 
this is inherent in the military, in particular.
    General Newbold. Sir, we do have a problem in the military 
of people that are willing to speak up and to speak out 
frankly, regardless of consequences. I will say very strongly 
that I do believe their responsibility is to do it in private 
while they are on active duty, other than their oath, which I 
believe holds them responsible to speak frankly to Congress 
when they are asked questions.
    Mr. Shays. So should Congress literally have a requirement 
that if we get information that is testified before us, 
particularly under oath, that if it is not accurate should 
there be some penalty to that individual if they don't? I mean, 
what do we do to incentivize?
    General Newbold. I am not sure that disincentive is the way 
to do it. That has been my experience. It may be the only 
recourse you have now, but my experience is that there ought to 
be another and a better way.
    Mr. Shays. Let me ask you this, and it is not something I 
want to ask you, but is it because Republicans and my own party 
should have perhaps met privately and then found a way to have 
certain things come out publicly? I mean, in other words, is 
part of it a problem that it was a Republican Congress with a 
Republican President, and is that the problem you have with the 
Democratic President and a Democratic Congress?
    General Newbold. I should say that the problems I have 
described in the interagency applied equally to the previous 
administration, and I could go through countless anecdotes, and 
I would say that the senior military, likewise, was not vocal 
when they knew things were amiss.
    The best forum I think is in private. As soon as I retired, 
I spoke to several Members of the House and of the Senate 
privately, and there are no views that I have expressed today 
that I didn't express then. I think that in inviting over 
senior members of the military in private, they will always get 
a more informed view than in public.
    Mr. Shays. Well, you know what? It strikes me that you need 
a Secretary of Defense who makes it clear that when people 
testify in front of Congress they have obligations to tell the 
truth. I am struck by the fact that the head of the Joint 
Chiefs of Staff has to say to his men and women, you have a 
moral obligation to speak the truth when you are asked, 
particularly in Congress, either speak the truth ever or don't 
say it, but when you are asked a question, and if you are not 
going to speak the truth then you just don't answer it. Maybe 
that is where the moral obligation begins.
    Mr. Tierney. I thank the gentleman.
    The gentleman from Massachusetts, Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank our 
ranking member for his work on this, and I want to thank the 
panelists for helping the committee with its work.
    General, I have done a lot of work on the IED issue in 
Iraq. In April I will be going for my sixth visit over there, 
but a lot of that time has been spent on the IED issue and the 
availability of automatic weapons to the Iraqi population, 
generally. I agree with your assessment, very much so, that the 
inability to secure these facilities, whether you call them 
weapons caches or munitions depots, it is all a terrible 
problem.
    I actually spent a little time in Fallujah and also in 
Tikrit where General Adierno at that time had been uncovering--
he is a battle-hardened warrior, and he was very, very much 
surprised at the level of munitions that were available. It was 
his estimation at the time that Saddam Hussein had spent the 
better part of the last 20 years burying these caches of 
weapons all over the country for the future.
    The ironic part is that Saddam Hussein actually heavily 
regulated the availability of those weapons. He shipped them 
in. He bought them from the Russians, but he had a very strict 
gun control law because he was a paranoid psychopath and he 
wanted to make sure his guys had all the weapons. But since the 
bombing of the Mosque in Samarra, weapons have become a 
necessary appliance in every Iraqi home. That's simply the fact 
of life.
    I met with the Iraqi Parliament and talked to all their 
folks, and they agree that the problem has grown much, much 
worse.
    The root of the problem--well, not the root, but certainly 
something that helped the problem along was the fact that L. 
Paul Bremmer, the former Coalition leader for us, Jerry 
Bremmer, actually one of his first acts as administrator there 
approved CPA law No. 3. Actually, I think he called it 
declaration No. 3, which shifted. Under Saddam you weren't 
allowed to have an automatic weapon. Under Jerry Bremmer, under 
us, he put in a law, CPA declaration No. 3, that every Iraqi 
home would be limited to one weapon.
    Now, the problem is everybody stocked up. The availability 
of the weapons was plentiful, and unfortunately for us the 
weapon of choice there, from Iraqis that I have talked to and 
from my time in country, is the AK-47. They choose that because 
it is a compact weapon, rounds per minute, they have a 30-round 
clip, and 600 rounds per minute. When you are protecting your 
home, firepower is what it is all about.
    You know, I also talked with some folks that are dealing 
with the weapons dealers on the street. From my understanding, 
the gun dealers are doing better than the oil industry in terms 
of their production.
    I have some quotes from a couple of the dealers here. His 
only complaint from the dealer was that, because the weapons 
are so plentiful and easily obtained because of the Iraqi 
military situation and there is no security, he said because 
they are so plentiful it is difficult to find someone to buy my 
guns because everyone already has one or two in his house. As I 
said, since the death squads have been out there, each weapon 
has become a necessary appliance in every Iraqi home.
    Given the widespread prevalence of weapons and munitions, I 
was out on the Syrian border. There are so many weapons there, 
they are actually triple stacking now. The insurgents are 
triple stacking anti-tank mines. They have enough to put three 
on top of each other to take out some of our striker vehicles 
and humvees.
    Given the level of all of this, what is the hope of us 
adopting a program at this point--and many of my visits were 3 
years ago, when we knew this was a problem.
    The other problem now is the Iraqis are in charge. The 
Iraqis control a lot of these facilities now. They have been 
hard pressed to get the water running and get the electricity 
running. I just don't see a competent government there that is 
willing to deal with this problem.
    I just wanted to know, I know you know what the problem is, 
but what about the solution and our chances of success?
    I will yield back at this time. Thank you, Mr. Chairman.
    General Newbold. Sir, we are addressing the problem of IEDs 
by trying to add armor, and that helps. That has saved a number 
of lives, and it is a good thing. But the fundamental issue on 
IEDs is not only the prevalence of the munitions that compose 
them, but the eagerness on the part of a large part of the 
population to use them against us.
    With the best armor, the new MRAD vehicle and the Grizzly, 
etc., unless you get to the core of the problem we will always 
have an IED issue as long as there are troops in Iraq. If there 
is 40 percent unemployment, if there is little economic 
potential among the country, if the country is divided and 
factionalized, and we are viewed as occupiers, then if they 
don't have IEDs they will use AK-47s. If they don't have those, 
they will use sticks.
    The military is trying very hard to solve a problem that, 
in its nature, is not military. They can contribute, but I 
addressed before this has to be a strategy. A four-star general 
I talked to yesterday about coming before you today said we 
would appreciate more than anything a cohesive strategy. If 
there is one, and if it is robustly applied, then the 
likelihood of Iraqis using IEDs will go down, even as we take 
whatever measures to protect our troops.
    That is a bit difficult to implement, but it truly is my 
most fervent belief.
    Mr. Lynch. Thank you.
    Mr. Tierney. I thank the gentleman.
    Mr. Platts, 5 minutes.
    Mr. Platts. Thank you, Mr. Chairman.
    I appreciate both witnesses for your testimony and, Mr. 
Chairman, for your holding this important hearing. Having 
traveled four times to Iraq, twice with the gentleman from 
Massachusetts, we appreciate the challenges, but the importance 
of addressing many issues, including this one, and the threat 
it poses to our troops.
    I also want to add, General, to your service in uniform a 
special thanks for your dedicated and patriotic service to our 
Nation.
    I apologize for coming in from another hearing late.
    One issue that I wanted to followup on is in the DOD's 
response letter to the theater-wide survey and risk assessment, 
it is my understanding in the response they stated, ``An in-
depth theater-wide survey to identify unsecured conventional 
munitions in Iraq is not feasible without significantly 
degrading ongoing intelligence efforts in Iraq or in the 
region.''
    Is it a fair assumption--and maybe this was addressed--that 
what is being referenced there by DOD is if we devote enough 
resources to this issue we are going to diminish our resources 
in other areas of going after the enemy? Is that how you take 
that statement from DOD?
    General Newbold. Of course I am speculating on what 
motivated their response, but my own testimony and my notes 
indicate my belief that for headquarters already enormously 
burdened and too thin to begin with, that a review and analysis 
of this, while necessary, is probably not the most productive 
thing for the committee to address. There are other fixes that 
resonate more with me and are more fundamental to the problems.
    I can understand and I think that the committee has to do 
something to get a robust response out of the Department of 
Defense, but I would hate to see the--I have been there--I 
would hate to see the staffs in Baghdad with just another, as 
we say, rock in the roadside.
    Mr. Platts. Maybe one followup, then I want to yield to the 
gentleman from Connecticut for additional time. In 
understanding that our guys have a lot that they are carrying 
right now, are we aware of efforts or requests or ongoing 
efforts by the Iraqis, themselves, to step up in this specific 
area so we don't further burden our troops? And are they 
engaged in doing that? I am one who believes in the heroic and 
amazing service in liberating Iraq, but ultimately the Iraqis 
need to step up and secure Iraq, including these munitions that 
maybe are still out there and accessible.
    Are either of you aware of specific efforts to have the 
Iraqis take the lead, with guidance or assistance from us in 
the intelligence area, but to actually take the lead on this 
issue?
    General Newbold. I have some comments, but do you----
    Mr. Platts. Ms. D'Agostino.
    Ms. D'Agostino. We don't have anything unclassified that we 
can discuss about that, but we could brief you separately on 
what information we do have about use of Iraqi contractors, 
etc.
    Mr. Platts. OK.
    General Newbold. In a general sense, as the Iraqi army 
grows in size and in competence, they will have a better 
ability to station forces to guard ammunition storage sites and 
to search for weapons in hidden storage sites held by the 
insurgents. As you know, there are some examples of where 
Iraqis guarding storage sites have turned over the sites to the 
locals, to looters, or to insurgents. I hope that period is 
behind us.
    I would make a comment, and this may be superficial, but as 
best I can recall the Iraqi nation has had conscription since 
the early 1930's. They felt it was important at the time to 
have national service and/or military service for the members 
of their population from 1932, roughly, until 2003. They do not 
have it now, despite rampant unemployment. You can't guard the 
pipelines, you can't guard munitions, you can't search out the 
bad guys or secure the cities to the degree you can, but this 
is the only period in their history when they have not had 
national subscription.
    I don't care whether it would be in the military or 
Civilian Conservation Corps or Peace Corps or whatever it was, 
it seems to me that getting 20 year olds off the street is not 
a bad idea right now.
    Mr. Platts. I share that opinion and the importance of them 
stepping up.
    I want to yield what is left----
    Mr. Tierney. There is no time left.
    Mr. Platts. Thank you. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Platts.
    What I think we might do here, because we are going to have 
some votes in about 15 minutes, is other members of the panel 
remain here, might each have another question or two that they 
want to ask.
    Mr. Shays, why don't you ask yours first.
    Mr. Shays. Thank you.
    A very fine article in Time Magazine written in July of 
last year--correct, it was written then? Did anyone in the 
administration--I don't need to know who or what, but did 
anyone read this article and say, ``you know, this is a three-
star general. He was involved in the planning of Iraq. Why 
don't we sit down and talk with him?'' I mean, by then people 
knew things weren't going well. Did anyone say I want to sit 
down and talk with you in the administration of a person of 
some rank and authority? Did you get any response at all?
    General Newbold. No, sir. Now, within the military any 
number of people, close friends.
    Mr. Shays. But nobody in the authority to make a change or 
act? I'm just reminded that President Roosevelt would sometimes 
frustrate his Secretaries of whatever Cabinet, he would call a 
junior officer up and just ask to speak to someone and say what 
the hell is going on there, and this junior officer would be 
speaking to the President of the United States. But, you know, 
it was a struggle for a President to be informed.
    I think it is maybe a good lesson for any future Presidents 
to say when you have someone of some distinction as you, a 
three-star in the planning process, the war didn't go well, or 
whatever, anything, to say, you know, I have to find a way to 
communicate with people who ended up not going the right way.
    Just this last point. IBM had a way of tracking people who 
made decisions, and then 5 and 10 years later going back and 
saying, did this decision turn out right? They even take 
someone who is retired, who 10 years ago made a decision, and 
reward him financially, because they wanted to start to know 
who is making the right decision and who isn't, to make sure 
those are the people that are going up and not going out.
    General Newbold. Sir, I get no Christmas cards from the 
administration.
    Mr. Tierney. Thank you very much.
    Let me ask a question, if I may, a couple of questions.
    Ms. D'Agostino, I am a little concerned, and I don't 
entirely agree with the General on this, though I totally 
respect your expertise in this area. I have to be convinced 
that there is another way to skin the cat of finding out what 
is out there in terms of these. I mean, they are the materials 
that are going to IEDs that, in turn, are wounding our men and 
women that, in turn, we are seeing at Walter Reed and in our 
Veterans Administration hospitals. Has the Department of 
Defense in any of their responses talked about satellite 
imagery, talked at intelligence coordination, talked about 
field reports, talked about any other source that they could 
use to get a better grip on how much of these munitions are out 
there, where they are, and how they might go about securing 
them better than they are doing now so that we could lower the 
number of people that we see coming back in these horrendous 
conditions at Walter Reed?
    Ms. D'Agostino. Mr. Chairman, the Department's response 
stands, I think, as it was provided to us for our report.
    Mr. Tierney. Which is a monument of non-responsiveness in a 
large extent.
    Ms. D'Agostino. We understand that Secretary Gates 
apparently testified a few days ago before a Senate committee. 
I can get you some more information on it. And he was asked 
about what they are going to do about a survey and risk 
assessment on this matter, and I believe his response involved 
continuing to consult with his advisors about whether or not 
they should do that.
    Mr. Tierney. Thank you.
    Ms. D'Agostino. So that is the latest information we have.
    Mr. Tierney. General, let me ask you one last question 
here. Those comments made earlier about the bloated bureaucracy 
of our military in Iraq, would you just speak to that for a 
second of what are the consequences? What is the extent of 
that, and what are the consequences in how it is that we are 
prosecuting that situation when that occurs?
    General Newbold. Mr. Chairman, it is something that I can't 
speak to with a lot of depth, so I have to qualify that, but I 
will say that my years of service gives me personal observation 
of how we have responded to crises, and often, and I believe is 
now the case, we create the headquarters almost before we 
create the maneuvering units, and we create infrastructure and 
size and scale that has almost a cultural side effect, and that 
is that people in contonments, with comforts, and with 
bureaucratic duties take on bureaucratic mind sets. The lean 
expeditionary forces which are integrated into the population 
and active in their missions and are contributing in a way that 
I think leads to better efficiency, better effectiveness, and a 
completely different mind set.
    One comment. General Petraeus I believe has made a very 
good move by putting the maneuver forces out into the 
population. You can see evidence of that now. I think it will 
show effect. And, as you know, it is already happening out in 
the western part of the country.
    Mr. Tierney. Thank you very much, General.
    Are there other members of the panel that want to ask 
another question before we end?
    [No response.]
    Mr. Tierney. Let me just close then by thanking again both 
of our witnesses, Ms. D'Agostino for an excellent report that 
has, I think, created some discussion and followup that will be 
important to the country and hopefully to some of those young 
men and women coming back.
    General, thank you for coming in today. I know you did it 
with some trepidation. It is not easy to come back and testify, 
but we honor you for your service and your commitment to the 
country, as well as for your testimony.
    I thank the members of the panel for their participation.
    With that, this concludes the hearing.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Bruce L. Braley follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                                 <all>

</pre></body></html>
